No. 21-57
IN THE
Supreme Court of the United States
LEVI FRASIER,
Petitioner,
v.
CHRISTOPHER EVANS ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF COMPLIANCE WITH
WORD-COUNT LIMITATIONS
I, Bruce D. Brown, counsel for amici curiae
and a member of the Bar of this Court, certify that
the Brief of the Reporters Committee for Freedom of
the Press and 44 Media Organizations in Support of
Petitioner contains 5,212 words, excluding the parts
of the brief that are exempted by Rule 33.1(d).
Date: August 13, 2021

/s/ Bruce D. Brown

